WAIVE

Supreme Court, U.S.
FILED

SEP 1 3 2021
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
No. 21-353
Allstate Insurance, et al.

Ethan Hoggatt, et al.
(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):
Allstate Property and Casualty Insurance Company

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

0

Signature:

9/13/2021

Date:

(Type or print) Name Charles E. Cowan
0 Mr.

0

Ms.

0 Mrs.

Firm

Wise Carter Child & Caraway, P.A.

Address

401 East Capitol Street

City & State

Jackson, Misssisippi

Phone

601-968-5514

0 Miss

Zip 39201

j

Email Icec@wisecartercom

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Victoria Johnson Hoggatt, Esq.
60094 Tubb Drive
Amory, Mississippi 38821

RECElyED
SEP 2 1'2021
SUlakiFcaMiTY

WISE,CARTER

JACKSON OFFICE
CHARLES E. COWAN
SHAREHOLDER
P.O. Box 651, Jackson, MS 39205-0651
401 E. Capitol Street, 600 Heritage Building
Jackson, MS 39201
P: 601.968.5514
F: 601.968.5519
cec@wisecartencom

September 13, 2021
Supreme Court
Attn: Clerk's Office
1 First Street, NE
Washington, D.C. 20543
via Certified Mail /Return Receipt
Article No. 7017 0530 0001 1138 6722

Re:

Waiver / Supreme Court of the United States
Ethan Hoggatt, et al. v. Allstate Insurance, et al.
No. 21-353

Dear Sir or Madam:
Please find enclosed the original, signed Waiver in the above-referenced matter. Upon your receipt
of the enclosed, please file the same and return a stamped "filed" copy to my attention in the preposted return envelope enclosed.
Should you have any questions regarding the enclosed or this request please do not hesitate to
contact me.

Sincerely,
WISE CARTER CHILD & CARAWAY, P.A.

Charles E. Cowan
CEC/wd
Enclosures

RECEIVED
SEP 2 1 2021

Cc w/ Encl.: Victoria Johnson Hoggatt, Esq.
60094 Tubb Drive
Amory, Mississippi 38821

OFFICE OF isle QLERK

SUPREME COuRT. U.S.

JACKSON

I

GULFPORT

I

HATTIESBURG

WWW.WISECARTER.COM

DETROIT

